                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A13010015                                                                          Page 1 of 1



                  This case was a duplicate of a matter that was previously opened as a case.
                  This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
